U.S. Department of Justice

with

Office of the Solicitor General

Washington, D.C. 20530

January 23, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Walker v. United States, No. 19-373

Dear Mr. Harris:
On January 22, 2020, counsel for petitioner informed the Court that petitioner James
Walker has passed away. The government agrees that, consistent with the Court’s ordinary
practice, the Court should therefore dismiss the writ of certiorari in this case.
This case raised the question whether an offense that can be committed with a mens rea of
recklessness can include as an element the “use, attempted use, or threatened use of physical force
against the person of another” under the Armed Career Criminal Act of 1984 (ACCA), 18 U.S.C.
924(e)(2)(B)(i). Notably, the Court appears to be holding several other petitions for writs of
certiorari that raise the same question, and it may wish to grant one of those petitions as a substitute
for this case.
In the view of the government, Burris v. United States, No. 19-6186 (filed Oct. 3, 2019),
would provide the most suitable substitute for Walker, as the first question presented in that case
involves a challenge to the application of the ACCA based on the same Texas robbery offense at
issue in Walker. If the Court grants the petition in Burris, limited to the first question presented,
it could expedite the briefing to consider the case this Term, given that substantial briefing on the
merits has already been completed in Walker. The parties to Burris have agreed that, if the Court
wishes to schedule oral argument this Term, petitioner would consent to file his opening brief
within 30 days of the order granting the writ of certiorari, and the government would consent to
file its response brief within 25 days after the brief for petitioner is filed. Alternatively, if the
Court does not wish to expedite the briefing schedule, the parties would, of course, be willing to
brief the case on an ordinary schedule for consideration next Term.
Before the Court granted certiorari in Walker, the government had observed that Borden v.
United States, No. 19-5410 (filed July 24, 2019), would also be a suitable vehicle for considering
the question of whether offenses with a mens rea of recklessness can satisfy 18 U.S.C.

924(e)(2)(B)(i). Burris, however, would be a superior substitute for Walker. First, as mentioned,
Burris involves the same underlying offense at issue in Walker. Second, the panel in Borden
appeared to believe that the question presented involved the “crime of violence” designation under
the Sentencing Guidelines, when it actually arose under the ACCA. See United States v. Borden,
769 Fed. Appx. 266 (6th Cir. 2019).
Accordingly, for the reasons stated above, the government agrees that the Court should
dismiss the writ of certiorari in Walker. If the Court does so, the government recommends that
the Court grant a writ of certiorari in Burris, limited to the first question presented, and expedite
the briefing schedule if the Court wishes to schedule oral argument this Term.
Sincerely,

cc:

See Attached Service List

Noel J. Francisco
Solicitor General

19-0373
WALKER, JAMES
USA

DAVID A. BARRETT
BOIES, SCHILLER & FLEXNER LLP
55 HUDSON YARDS
NEW YORK, NY 10001
212-446-2300
DBARRETT@BSFLLP.COM
DOUGLAS A. BERMAN
OHIO STATE UNIVERSITY
MORITZ COLLEGE OF LAW
55 WEST 12TH AVENUE
COLUMBUS, OH 43210-1391
614-688-8690
BERMAN.43@OSU.EDU
ISHAN K. BHABHA
JENNER & BLOCK LLP
1099 NEW YORK AVE., NW
SUITE 900
WASHINGTON, DC 20001
202-637-6327
IBHABHA@JENNER.COM
CYNTHIA FLEMING CRAWFORD
CAUSE OF ACTION INSTITUTE
1310 N. COURTHOUSE ROAD
SUITE 700
ARLINGTON, VA 22201
571-451-0352
CYNTHIA.CRAWFORD@CAUSEOFACTION.OR
G

VALENTINE C. DARKER
DARKER & ASSOCIATES
1470 MONROE AVENUE
MEMPHIS, TN 38104
DAVID DEBOLD
GIBSON, DUNN & CRUTCHER LLP
1050 CONNECTICUT AVENUE, NW
WASHINGTON, DC 20036-5306
202-955-8551
DDEBOLD@GIBSONDUNN.COM
NICHOLAS A. HANDLER
PAUL, WEISS, RIFKIND, WHARTON &
GARRISON LLP
1285 AVENUE OF THE AMERICAS
NEW YORK, NY 10019
DANIEL T. HANSMEIER
APPELLATE CHIEF
500 STATE AVENUE
SUITE 201
KANSAS CITY , KS 66101
913-551-6712
DANIEL_HANSMEIER@FD.ORG
REX S. HEINKE
AKIN GUMP STRAUSS HAUER & FELD LLP
1999 AVENUE OF THE STARS
SUITE 600
LOS ANGELES, CA 90067-6022
310-229-1030
RHEINKE@AKINGUMP.COM
310-229-1001(Fax)

RYAN P. MULVEY
AMERICANS FOR PEROSPERITY
FOUNDATION
1310 N. COURTHOUSE ROAD
STE. 700
ARLINGTON, VA 22201
571-444-2841
RMULVEY@AFPHQ.ORG
KANNON K. SHANMUGAM
PAUL, WEISS, RIFKIND,WHARTON &
GARRISON LLP
2001 K STREET, NW
WASHINGTON, DC 20006
202-223-7300
KSHANMUGAM@PAULWEISS.COM
DEVIN S. SIKES
AKIN GUMP STAUSS HAUER & FLED LLP
ROBERT S. STRAUSS TOWER
2001 K STREET, NW
WASHINGTON , DC 20006-1037
DSIKES@AKINGUMP.COM

